WAIVER

SUPREME COURT OF THE UNITED STATES

No. (20-1703

Martin Dekom Fannie Mae
(Petitioner) Vv. (Respondent)

1DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
oO Tam filing this waiver on behalf of all respondents.
© Tonly represent some respondents. I am filing this waiver on behalf of the following respondent(s):
Coschignano, Riccio, Cozzens, Adams, Pech, Brandt, Agostino, Joseph, Eng, Sheinkman, 8 Motion Clerks,
and 2nd Dept Appellate Judges
Please check the appropriate box:
© Tam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
oO Tam not presently a member of the Bar of this Court. Should a response be requested, the response

will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).

Signature: Fo tota. be Unrkel__
Date: 6/30/21

(Type or print) Name /Barbara D. Underwood

O mw. © Ms. O mrs. O Miss
Firm New York State Office of the Attorney General
Address 28 Liberty Street
City & State |New York, New York Zip |10005
Phone 212-416-8020 Email |parbara.underwood@ag.ny.gov

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

Martin Dekom, Esq.
cc; |9050 Sunset Drive
Navarre, FL 32566
